                                     ;-
                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM


1   Case Number: A-03040020
                                                                                      11           Page 1 of 1



                  In a previous case,' the subject2was found by NSF to have.committedmisconduct in science.
           In a letter dated 19 October 2001, NSF's Deputy Director notified him that "you must submit
          certificationsto OIG, for two years, in conjunction with any documents you submit to NSF for which
          you have authorship responsibilities stating that, to the best of your knowledge, those documents
          contain no plagiarized material." In April 2003 we ascertained that 3 proposals had been submitted
          to NSF with the subject listed as PI or Co-PI, but we had received no certifications. Information
          provided by the subject as well as his dean3 showed that they believed it was sufficient for the
          subject to comply with the requirement imposed on him by his university as a result of his
          misconduct, that he submit to the dean a signed cover page certification for every proposal submitted
          to any agency. The dean also provided evidence that the subject had substantiallycomplied with this
          requirement.

                   The subject and the dean both claimed to have spoken with somebody in our office who
          informed them that compliance with the institution's requirement was adequate; however, neither
          indicated that they spoke with anyone in our office after the date of the Deputy Director's letter (it is
          inconceivable that we would tell anyone to ignore a certification requirement imposed by NSF).
          NSF's letter was sent to the subject, not to the subject's institution, and we concluded that the
          evidence provided by the dean reflected that the institution acted in good faith. Although the
          subject's utter failure to comply with the requirement imposed on him by NSF's Deputy Director did
          not reflect well on his integrity, we concluded that it did not warrant additional action by NSF. In a
          letter to him we urged the subject to take care to comply with the requirement with any proposals
          submitted to NSF before 20 October 2003.

                    Accordingly, this case is closed.




NSF OJG Form 2 (1 1/02)
